No. 20-826

In the Supreme Court of the United States
MIKE BROWN, ACTING-WARDEN, PETITIONER
v.
ERVINE DAVENPORT
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
The undersigned certifies that on March 8, 2021, she e-served the Reply Brief
along with a Certificate of Compliance by e-filing and e-mailing same to the email
address provided:
•

Tasha J. Bahal, Tasha.Bahal@wilmerhale.com

Paper copies will be served by Cockle Legal Briefs upon:
Counsel of Record for Respondent:
Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com
/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20-826
MIKE BROWN, ACTING-WARDEN, PETITIONER
V.

ERVINE DAVENPORT
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of March, 2021, send out
from Omaha, NE I package(s) containing 3 copies of the REPLY BRIEF in the above entitled case. All parties required to be
served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:
SEE ATTACHED
To be filed for:

Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF I@michigan.gov
(517) 335-7628
Jared Schultz
Assistant Attorney General
Criminal Trials & Appeals Div.
Attorneys for Petitioner

Subscribed and sworn to before me this 8th day of March, 2021.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

NERAL NOTARY-State of Nlbraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

Affiant

40488

Tasha Bahal
Wilmer Cutler Pickering Hale and Dorr LLP
60 State Street
Boston, MA 02109
617-526-6106
Tasha.Bahal@wilmerhale.com

